No.

supreme Court. U.S.
FILED

IN THE

JUN 0 7 2021
SUPREME COURT OF THE UNITED STATE S
OFFICE OF THE Cl Fa*

PETITION FOR WRIT OF CERTIORARI

JIMMIE

O1NEAL

— PETITIONER
Pro/se,

(Your Name)

vs.

JAY CHRISTENSEN (WARDEN)
— RESPONDENT(S)
AND 9TH Cir. of Appeals.
ON PETITION FOR A WRIT OF CERTIORARI TO
9TH CIR. DENIED COA BECASUE NOTICE OF APPEAL NOT TIMELY
9TH CIRCUIT DID NOT REVIEW THE MERITS OF THE CASE

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

JIMMIE
O1NEAL
(Your Name)
ISCC

IDOC No.#123272

UNIT E-2 P.O. Box 70010

(Address)
Boise,
Idaho
(City, State, Zip Code)

83707

IDOC (ISCC) Website State of Idaho
(Phone Number)

QUESTION(S) PRESENTED
A/. IN THIS CASE OF PETITIONERS PETITION FOR WRIT OF CERTIORARI,
PETITIONER REQUEST REVIEW OF THE NINTH CIRCUIT COURT OF APPEALS
DECISION THAT DENIED HIS REQUEST FOR CERTIFICATE OF APPEALABILITY THAT WAS BASED ON NOT BEING TIMELY FILED BECAUSE OF
JUST CRICUMSTANCES OF COVID-19 VIRUS, AND NOT THE MERITS OF
PETITIONERS PETITION.
B/. PETITIONER REQUEST THIS COURT TO REVIEW THE REASON'S WHY HE
WAS UNABLE TO FILE MOTION FOR EXTENSION OF TIME AS THE RESULT
OF. THE ALMOST TWO YEAR SPREAD AND DEATHS AT'IDOC FROM COVID-19.
C/. UNDER THE HARSH ACTIONS THAT WERE TAKEN AGAINST COVID-19 MANY
INMATES IN THE 9th Cir., SUCH AS THIS PETITIONER SUFFERED EXTREME
HURDLES OF DELAY, UNDER THESE MORE THAN RARE CIRCUMSTNACE THAT
HAVE NEVER BEEN BEFORE INSERTED TO THIS COURT IS IT NOT OF A
NATIONAL IMPORTANCE.TO BETTER SERVE THE INSTEREST OF JUSTICE TO
ALL IN OUR GREAT NATION THAT WE ALL STRIVE TO LEAR THE MERITS OF
THE CASE BEFORE DISMISSING THE CASE THAT WAS NOT FOUND TO BE
FRIVOLOUS IN OUR FEDERAL STATE DISTRICT COURTS, AND SHOULD NOT
FOR THOSE THAT SOUGHT (COA’S) IN THE (9th Cir. Court of Appeals)
HAVE THEIR (COA) DECIDED ON THE MERITS OF THE CASE.

THE QUESTION

. LIKE A STIMULUS SHOULD NOT IT BE ADMISSIBLE FOR CASE TO BE DECIDED
ON THE MERITS INSTEAD OF USING THE AGITATION THAT IT WAS WAS NOT
.TIMELY.FILED AS A PROVEN RESULT OF COVID-1 9. THIS ISSUE EMBODIES
ALL INMATES OF THE NINTH CIRCUIT AND SHOULD APPLY TO THOSE CASES
WHERE THE MERITS OF THE CASE WERE NOT FOUND FRIVOLOUS BY STATE
FEDERAL DISTRICT COURTS.
4

LIST OF PARTIES

[x] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

«

JAY CHRISTENSEN r(WARDEN) (ISCC) FACILITY
POST OFFICE BOX 83720
BOISE, IDAHO 83720

UNITED STATES COURT OF APPEAL
FOR THE NINTH CIRCUIT (SAN FRANCISCO. CA. )
POST OFFICE BOX 193939
SAN FRANCISCO, CA 94119-3939

SOLICITOR GENERAL OF THE UNITED STATES

Rm. 5614 Dept, of Justice
950 PENNSYLVANIA AVE.
N.W. WASHINGTON D.C
20530-0001
ORIGINAL TO:

™o SVZT1TIS
WASHINGTON, DC

20543

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

P age s_4th rou g h

STATEMENT OF THE CASE

15

REASONS FOR GRANTING THE WRIT

16/

CONCLUSION

.1.7

INDEX TO APPENDICES

APPENDIX A
APPENDIX B
APPENDIX C
o

APPENDIX D
*

APPENDIX E

APPENDIX F

UNITED STATE COURT OF APPEAL FOR THE NINTH CIRCUIT
JIMMIE O'NEAL v. JAY CHRISTENSEN No. 21-35299
REQUEST FOR COA DENIED AS NOTICE WAS NOT TIMELY
FILED AS RESULT OF COVID
19 VIRUS CIRCUMSTANCES
DENIED MAY 14th 2021.
THIS IS ABOUT THE DENIAL UNDER CIRCUMSTANCE
OF COVID 19 AND NOT THE ACTUAL CRIMINAL
HOMICIDE CASE THAT IS ON APPEAL AS A RESULT
OF STATE FILED POST CONVICTION:

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

ROBINSON v. SCHRIRO 595 F.3d 1086 1103-04 (9th Cir 2010)................
BYRD v. MARICOPA CNTY.SHERIFF’S DEPT • / 629F.3d 1135,1141 (9th Cir.
2011)......................................................
CALDERON v. THOMPSON, 533 u!s!*538," 553-55*(1998)
BURTON v. STEWART 549 U.S. 147 1R7
WOODS v.CAREY, 525 F.3d 886, 888 (9th*Cir* (2008)

8
10
11
11
12

STATUTES AND RULES
UNITED STATES §2244(b)(2)..
28 u.s.c. 2244(b)(3)....................!!!!!!!!!!!!*’
MERITS OF (OOA) OBTAINED IN (9th*Cir.* *Rules)

11
11
16

OTHER

COVID - 19 VIRUS BLOCKED TIMELY FILE FOR APPEAL AND APPLICATION FOR THE
COA SOUGHT FROM THE (9th Cir.)...................................................... .. through 16

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix (A)
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[Xl is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
I or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION

For cases -from federal courts:
The date on which the United States Court of Appeals decided my case
was May 14hh ?D?1
[x] No petition for rehearing was timely filed in my case.
APPLICATION FOR PDA FILED LATE AS RESULT OF OOVIED-19 at the Prison
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
--------------------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

EIGHTH AMENDMENT RIGHTS UNDER U.S. CONST..........................

3 through 16

14th AMENDMENT PROTECTIONS TO DUE PROCESS IN VIOLATIONS UNDER RARE
CIRCUMSTANCES UNDER COVID -19 VIRUS..................
3 through 16

THIS CASE IS ABOUT THE 9 th CIR. DISMISSING APPLICATION FOR QQA BECAUSE NOT
TIEMLY WITHOUT CONSIDERATION OF THE MERITS OF THE CASE (HOMICIDE) or
REVIEWING THE CIRCUMSTANCES OF THE LATE FILING AS A RESULT OF COVID-19
THAT BURDENED MANY INMATES ACROSS THE UNITED STATES AND THEIR CIRCUITS
THAT SERVE THEM. AS THERE WAS STIMULUS FOR THE CREAT CITIZENS OF OUR
GRAT NATION, AND FOR GOVERNMENT AND BUSINESS, BUT WHAT ABOUT A ONE TIME
PASS STIMULUS HANDED OUT TO THOSE THAT FALL UNDER THE CIRCUMSTANCES AS
THIS PETITIONER WHERE COVID-19 BLOCKED THE WAY TO THE COURTS, SHOULD
THERE NOT BE A SHORT REVIEW TO SEE IF MAYBE A JUDICIAL COVID STIMULUS
PASS PACKAGE COULD BE GIVEN IN SUCH RARE CIRCUMSTANCES AS TO ALLOW
CERTAIN CASES TO BE REVIEW UNDER SUCH EXTREME CIRCUMSTANCE THAT THE
WORLD AND OUR GREAT NATION HAS NEVER BEFORE SEEN OR DELT WITH, AS
MANY OTHER PROVISIONS HAVE BEEN ENACTED FOR EVERY OTHER PURPOSE TO ASSIST.
THIS
IS A PRO/SE PETITIONER PLEASE TAKE THE TIME TO LISTEN
„
. TO MY PLEA.
A PLEA THAT WOULD EFFECT A GREAT MANY ACROSS OUT NATION, THIS IS NOT
ABOUT MY CRIMINAL CASE THIS IS ABOUT MY CONSTITUTIONAL RIGHT TO BE
HEARD THAT I HAVE WORKED HARD FOR TO MEET THE JUDICIAL STANDARDS AS THE
RECORD WILL SUPPORT UNTILE MY APPEAL AND APPLICATION IN THE FEDERAL
COURT SYSTEM WAS OBSTRUCTED FOR OVER A YEAR AS A RESULT OF BEING INCARCERATED WITH THE COVID 19 VIRUS:

3

STATEMENT OF THE CASE
AFTER STATE EXHAUSTION PETITIONER FILED HIS CASE UNDER A §2254
IN FEDERAL COURT, PETITIONERS PETITION WAS NOTED AS TIMELY BEFORE
THE IDAHO FEDERAL DISTRICT COURT OF IDAHO (Located at Boise) AFTER
BEING GRANTED PERMISSION TO PROCEED IN FORMA PAUPERIS, AND REVIEW
BY THE COURT AND NOT FOUND TO BE FRIVOLOUS. RESPONDENTS MOVED FOR
SUMMARY DISMISSAL IN THE CASE OF PETITIONER CASE NO.1;19-CV-00483REB. THE FEDERAL-DISTRICT COURT OF IDAHO WAS NOT INCLINDE TO DO SO,
THE COURT ORDERED BRIEFS AS TO HEAR FURTHER ARGUMENT,

WHILE THE

ATTORNEY GENERAL FOR THE IDQC WARDEN JAY CHRISTENSEN WAS ALLOWED
AN EXTENSION BECAUSE OF COVID, PETITOINER COULD NOT RESPOND UNTIL
RESPONDENTS RESPONDED. BY THIS TIME PETITIONER WAS IN SPECIAL HOUSING
AS A RESULT OF THE COVID, AND WAS NOT ONLY ABLE TO RESPOND IN
ARGUMENT TO THE RESPONDENTS RESPONSAE, HE FAIL SERVANT AS A NOTED
DISADVANTAGED, TO NOT JUST THE COURTS BUT RESOURCE CENTERS RESEARCH
MATERIAL FROM WHERE HE WAS HOUSED AND THE CONDITIONS FOR WHICH HE WAS
HOUSE,

WITH THE PASSING OF SEVERAL INMATES IN HIS CELL BLOCK AN

OPEN DORM CELL BLOCK AT THAT WITH MANY TAKING SICK AS THE VIRUS
SPREAD. NO ONE MOVED FROM THE CELL BLOCK AND ONLY CERTAIN CLEARED
STAFF WERE ALLOWED TO ENTER.
ON OCTOBER 21st, Chief U.S. Magistrate Judge Rofiald E. Bush after
NO RESPONSE BRIEF TO THE RESPONDENCE WAS RECEIVE DISMISSED THE
CASE WITH PREJUDICE HEARING NO OTHER MOTIONS FOR REVIEW.
(OCTOBER 21st, 2020)
5

STATEMENT OF CASE
•CCONTINUED)

NOT ONLY DID RONALD E. BUSH CHIEF U.S. MAGISTRATE JUDGE OF IDAHO
UNDER CASE No. 1 :19-cv-00483-REB DISMISS PETITIONER1,1 S PETITION FOR
WRIT OF HABEAS CORPUS AFTER HE HAD FOUND IT NOT FRIVOLOUS, AND
WITH NO RESPONSE FROM THE PETITIONER IN OBJECTION TO STATES RESPONSE
THE JUDGE DISMISSED IT WITH PREJUDICE, AND STATED IN ADDITION THAT
THE CASE WAS THERFORE ORDERED CLOSED. PETITIONER NOT EDUCATED IN THE
LABYRINTHS OF LAW AND HAVING RECEIVED NO FORMAL EDUCATION FROM
A LEGAL INSTITUTION, COUPLED WITH THE HURDLES OF COVID - 19, AFTER
MONTHS OF ATTEMPTS FOUND THAT HE COULD APPLY ON HIS OWN ONCE HE
WAS ABLE TO OBTAIN RESOURCE MATERIAL TO THE 9th Cir. Court of
Appeals, to seek his (COA) from what he was able to OBTAIN THROUGH
A WORN OUT GEORGETOWN LAW JOURNAL.
PETITIONER THOUGHT SINCE HIS CASE HAD MERITS HE SHOULD BE ABLE TO
CONTINUED TO THE HIGHER COURT TO SEEK THEIR OPINION, EVEN WITH
HIS LATE FILING CREDIT SHOULD BE GIVEN UNDER THE CIRCUMSTANCES OF
COVID-19, BEING A HURDLE THAT WAS TO HIGH AT THE TIME TO MEET THE
EXPECTATION OF A TIMELY FILING, SHOULD NOT HE AND OTHERS THAT AMOUNT
TO. COUNTLESS IN THE 9TH CIR. THAT HAVE KNOWN MERIT BY THE FEDERAL
DISTRICT COURTS HAVE THE RIGHT TO HAVE THEIR (COA) AND CASED HEARD
BASED ON THE MERITS OF THEIR CASE IN THE 9th Cir. WITHOUT SUFFERING
FURTHER BY THE COVID-1-9 VIRUS. THIS CASE IS NOT ABOUT CASE LAW,
ITS ABOUT HUMANITARIAN^INTERVENTION IN THE INTEREST OF FUNDAMENTAL
FAIRNESS AND JUSTICE. ARE WE NOT ALL INHABITANTS TO THE GREAT U.S..
6

STATEMENT OF CASE
(CONTINUED)

THERE IS NO ABUNDANCE OR SUFFICIENT CASE LAW ON THIS SUBJECT MATTER
BEFORE THE COURT NOR AFFLUENCE OF WEALTH OF AUTHORITY THAT CAN
SUPORT THE LANGUAGE THE COURT COULD USE TO HEAR THIS CASE AS TO
ALLOW CONSIDERATION TO INMATES THAT ARE TARDY A ONE TIME STIMULUS
GRANT PER-SAY TO HAVE THEIR CASES CONSIDERED FOR (COA) BASED ON
THE MERITS OF THE CASE IF THEY WERE NOT STIPULATED AND FRIVOLOUS
AT THE FEDERAL DISTRICT COURT BEFORE THEY WERE DISMISSED, CASES
WHERE THE STATE FEDERAL DISTRICT JUDGES IN THE 9TH CIRCUIT FOUND
IT NECESSARY TO ORDER THE RESPONDENTS TO RESPOND.
FINDING OF FACT
AS MUCH AS IT WAS THE COVID-19 THAT DELAYED THE PROCESS AND TIMELY
FILING, AS THE IDAHO DEPARTMENT OF CORRECTIONS AND STATE DID THEIR
<

BEST TO WORK AROUND THE ISSUES IT WAS OUT OF THEIR CONTROL AS IT
WAS MOST ALL ENTITY'S AS WE FAIL PREY TO THE EFFECTS OF COVID-19.
HOWEVER CAN ARGUMENT BE CONSIDERED FOR RELIEF WHEN FOR VIOLATIONS
OF FEDERAL STATUTE AND COMPLIANCE WAS BROUGHT ON BE THE STATE IS
THE QUESTION TO ALLOW SUCH A CONSIDERATION RELIEF TO CONSIDER A
CASE ON ITS MERITS INSTEAD OF ITS LATE FILING ON APPEAL FOR (COA).
IT IS FULLY NOTED THAT RELIEF FOR VIOLATIONS OF A FEDERAL STATUTE
BY THE STATE WILL BE GRANTED ONLY IF THE VIOLATION RISES TO THE
LEVEL OF A "FUNDAMENTAL DEFECT WHICH INHERENTLY RESULTED IN A
MISCARRIAGE OF JUSTICE" or AS IN THIS CASE IS "INCONSISTENT WITH
7

FINDING OF FACT
(CONTINUED) •
THE RUDIMENTARY DEMANDS OF FAIR PROCEDURE."

HERE PETITIONER

ASSERTS THE CAUSE OF THE VIOLATIONS ARE AND WERE OF A CONSTITUTIONAL
MAGNITUDE, AND THE GENERAL IMPROPRIETIES INDUCED BY THE BURDENS
OF COVID-19 INHERENTLY RESULTED IN FUNDAMENTAL DEFECTS MAKING
THE CONSTITUTIONAL VIOLATIONS IN ONE FORM OR ANOTHER

COGNIZABLE

BECASUE TO ADDRESS THE COVID-19 VIRUS, THE MEASURES APPLIES
CREATED FUNDAMENTAL UNFAIRNESS THAT VIOLATED THIS PETITIONER'S
FOURTEENTH AMENDMENT RIGHT TO DUE PROCESS.

THE MERITS OF PETITIONERS CASE INVOLVES COUNTLESS FEDERAL CASE
AUTHORITY AND ARGUMENT SUCH AS FOUND UNDER ROBINSON v. SCHRIRO 595
E. 3d 1086 1103-04 (9th Cir. 2010) (Federal Habeas Relief GRANTED
BECAUSE COUT'S RELIANCE ON INSUFFICIENT EVIDENCE VIOLATED DUE PROCESS
NEVERTHELESS THIS ISSUE IN NOT ABOUT THE MERITS OF PETITIONERS CASE
AS MERIT HAD PREVIOUSLY BEEN ESTABLISHED.
THIS CASE IS ABOUT THE EIGHTH AMENDMENT RIGHT TO EQUAL TREATMENT
THE PROTECTIONS THAT ARE RETAINED AS CONSIDERATION FOR SOME EQUAL
PROTECTION PURPOSES.

A CLAIM THAT IN THIS CASE SHOULD BE PROTECTED

AS OTHER SIMILARLY SITUATED INMATES WERE INTENTIONALLY TREATED
DIFFERENTLY FROM ONE ANOTHER DURING THE COVID -19 VIRUSE AFFAIRT.
ALL INMATES ABOVE 55 YEARS OF AGE AND THOSE WITH NOTED MEDICAL
PROBLEMS WERE MOVED FORM GENERAL POPULATION AND PUT IN H-UNIT A
BUILDING NOT CONNECTED TO THE (ISCC) MAIN BUILDINGS, with LAUNDARY
FACILITIES THERE, A RELYING KITCHEN FOR FEEDING OPEN DORM LIVING
8

FINDING OF FACT
(CONTINUED)
SEPERATE YARD THAT WAS NOT ALLOWED FOR MONTHS AND WHEN SO ONLY
FROM 30 to 90 MINUTES HERE AND THERE DEPENDING ON WHICH OF THE 3
TEIRS WERE ON COMPLETE LOCKDOWN FOR COVID, NO ONE WITHOUT CLEARANCE
COULD ENTER THE BUILDING, INCLUDING MOST STAFF, AT LEAST 4 FOUR
INMATES DIED, WITH MANY MORE ON THE EDGE. THIS WENT ON FOR OVER
A YEAR AND WELL INTO THE SECOND YEAR, NOW TODAY WE REMAIN AS OUTCAST
FROM THE REST OF THE POPULATION, BACK INSIDE THE MAIN COMPLEX AND
LOCKED AWAY IN WHAT IS KNOWN AS E UNIT STILL UNABLE TO MIX WITH
THE GENERAL POPULATION BUT DO HAVE THE LEGAL RESOURCE CENTER
AVAILABLE TO US NOW,

THE IDOC MADE A SMALL ATTEMPT TO PROVIDE IN-

FORMATION THROUGH WHAT WAS KNOWN AS JAY PAY, BECAUSE OF THE FACT
THE RESOURCE CENTER COULD NOT REALLY ASSIST WHILE AT H-UNIT, HOWEVER
ITS NOT MUCH HELP IT DOES NOT PROVIDE FEDERAL LAW OR AT THAT TIME
NOW FORMS, NOR DOES IT PROVIDE LEXIS, OR WEST LAW FOR RESEARCH,
LET ALONE BACK THAN A MEANS TO FILE, MANY SUFFERED WITHOUT MERCY
FROM THE COURTS.

OTHER IN THE SYSTEM HAD MEANS TO TIMELY CONTINUE

AND ADDRESS THEIR ISSUES. TODAY WE REMAIN APART FROM GENERAL
POPULATION.

HERE THERE WAS NO RATIONAL RELATION BETWEEN THE

DISSIMILAR TREATMENT AND LEGITIMATE PENAL INTERST, AS ALL INMATES
AS IT WAS WERE ACCEPTABLE TO COVID-19, AND MOST HAVE HAD IT NOW,
WITH MANY OF US RECEIVING OUR SHOTS EVEN AFTER CONTRACTION OF THE
VIRUS. PETITIONER REQUEST THAT THIS COURT ALLOW SCRUTINY FOR THE
CONSIDERATION TO MANDATE UNDER RARE CIRCUMSTANCE FUNDAMENTAL
FAIRNESS BE PROVIDED TO HEAR THE MERITS OF HIS CASE BEFORE DISMISSING
9

r
FINDING OF FACT
(CONTINUED)
HIS PETITION ON THE FACT IT WAS LATE AS A RESULT OF THE IDAHOS
DEPARTMENT OF CORRECTIONS COVID-19 VIRUS AND THE HANDLING OF ITS
INMATES AS A RESULT OF THEIR AGE AND MEDICAL ISSUES, AS THOSE TEIRS
THAT DID NOT HAVE THE VIRUS THAT REMAINED ISOLATED, ENDED UP WITH
IT WHEN THE DEPARTMENT OF CORRECTIONS MISTAKENLY WOULD PUT AN INMATE
ON THE TEIR HAVING COVID -19 TIME AND AGAIN WITHOUT CHECKING THEM
SENDING THE CELL BLOCK INTO LONG PERIODS OF HARSH LOCK DOWNS, THIS
WAS NOT SO IN OTHER IDAHO CORRECTION INSTITUTIONS JUST FOR THE POOR
SOULS OF H UNIT.

CONVICTED PRISONERS, RETAIN AT LEAST THOSE CONSTITUTIONAL RIGHTS
THAT ARE ENJOYED BY PRETRIAL DETAINEES. DUE PROCESS CLAUSE SHOULD
PROVIDE AS MUCH PROTECTION FOR CONVICTED PRISONERS AS IT DOES FOR
PRETRIAL DETAINESS UNDER THE 8TH AMENDMENT.

BYRD v. MARICOPA CNTY.

SHERIFF'S DEPT'T, 629 F.3d 1135, 1141 (9th Cir. 2011)(PRETRIAL
DETAINEES RETAIN AT LEAST THOSE CONSTITUTIONAL RIGHTS ENJOYED BY
CONVICTED PRISONERS) FULLY NOTING PETITOINER IS A CONVICTED
PRISONER AND SHOULD BE ALLOW CONSIDERATION TO THOSE RIGHTS.

INADEQUATE ACCESS TO THE COURT AND RESEARCH TO FILE A TIMELY APPEAL
IN THE 9TH CIRCUIT UNDER THESE RARE CIRCUMSTNACES AND BY THE
ORDINANCES TAKEN UNDER COVID-19 CERTAINLY ALLOWED DEPRIVATION AND
MEANS TO MEET STATUTES AND REGULATIONS THAT ARE CUSTOM TO THE FILING
OF A FEDERAL APPEAL IN THIS CASE.
10

FINDING OF FACT
(CONTINUED)
IN CONSIDERATION OF USING A SECOND OR SUCCESSIVE PETITION IT WOULD
PROVE FRIVOLOUS THIS IS YET ANOTHER PARAMOUNT REASON AS TO WHY THE
UNITED STATES SUPREME COURT SHOULD TAKE REVIEW AND CONSIDER A ONE
TIME REMEDY FOR PETITIONERS IN THE CIRCUIT COURTS UNDER THESE
EXTREMELY RARE CIRCUMSTANCES. BECAUSE NO RELIEF CAN BE FOUND FOR
CASES SUCH AS THIS UNDER §2244(b)(2), WHICH STATES A PETITIONER
CAN FILE A SECOND OR SUCCESSIVE HABEAS PETITION, BUT ONLY AFTER
OBTAINING AN AUTHORIZATION ORDER FROM A THREE JUDGE PANEL IN THE
APPROPRIATED FEDERAL COURT OF APPEALS.

See CALDERON v. THOMPSON,

533 U.S. 538, 533-55 (1998)(PETITIONERS MOTION OF UNDERLYING DECISOIN REQARDED 'AS SECOND OR SUCCESSIVE APPLICATION EVADE BAR
AGAINST RELITIGATION OF CLAIMS PRESENTED IN PRIOR APPLICAITON.
THEREFORE PETITIONER (O'NEAL) HEREIN CAN NOT FILE A SECOND OR
SUCESSIVE HABEAS.
THIS COURT IS AWARE IN ORDER TO OBTAIN AN AUTHORIZATION ORDER A
PETITIONER MUST MAKE A PRIMA FACIE SHOWING THAT THE CLAIM WAS NOT
PRESENTED IN A PREVIOUS FEDERAL HABEAS PETITION, HERE PETITIONERS
PREVIOUS FEDERAL HABEAS PETITION AS ARGUED HAD MIT WORTH HEARIN
AND WORTHY OF RESPONSE IN THE LOWER FEDERAL AND STATE COURTS. WHEREAS
CLEARLY THE MERITS OF THE CASE CAN NOT BE CHANGED. See also 28 U.S.C.
2244(b)(3) also review BURTON v. STEWART 549 U.S. 147, 157 (2007)
(district court lacked JURISDICTION BECAUSE SECOND OR SUCCESSIVE
DID NOT RECEIVE PETITION AUTHORIZATON FROM THE CIRCUIT COURT, AND
11

) •

FINDING OF FACT
(CONTINUED)
PETITIONER (O’NEAL) WOULD NOT IN THIS CASE RECEIVE AUTHORIZATION
FROM THE CIRCUIT COURT AS HIS MERITS ARE GROUNDED AND BASED ON WHAT
WAS RAISED IN HIS FIRST PETITION WITH NOTED MERIT IN ALL COURTS
BOTH STATE AND FEDERAL DISTRICT OF IDAHO PRIOR TO APPLICATION FOR
COA REQUEST FROM THE 9TH CIRCUIT COURT OF APPEALS. See also Woods
v. Carey, 525 F. 3d 886, 888 (9th Cir. 2008) (Same).

THIS IS ANOTHER FACTUAL BASIS AS TO WHY THIS RESPECT GREAT AND POWER­
FUL COURT OF OUR NATION SHOULD CONSIDER SOME TYPE OF ASCERTAINABLE
RELIEF UNDER CIRCUMSTANCES THAT PLAYED THE PART OF AN OVER BEARING
HURDLES THAT DELAYED A TIMELY FILING OF APPEAL AND APPLICATION FOR
COA IN THE 9th CIRCUIT COURT OF APPEALS, ONLY TO BE JUSTIFIED ON
A CASE BY CASE CONSIDERATOIN FOR THOSE WITH MERIT THAT WERE LATE
TO FILE IN THE CIRCUIT COURTS APPLYING FOR (COA'S) THAT THE RECORD
WOULD CLEARLY SUPPORT IN THE LOWER COURTS THAT THERE WAS MERIT TO
THE PETITIONERS CASE WORTHY OF RESPONSE. OTHERWISE SIMPLY BECAUSE
YOU WERE AN INMATE FILING LATE DURING THE COVID-19 VIRUS PERIOD
UNLESS CIRCUMSTANCES COULD BE PROVEN AS IN PETITONER (O'NEALS) CASE
SUCH A RULE FOR OR PASS TO ALLOW CONSIDERATION FOR COA IN CIRCUIT
COURTS WOULD NOT APPLY. OTHERWISE LIKE IN IDAHOS DEPARTMENT OF
CORRECTIONTHE ONLY ONES THIS COULD APPLY TO WOULD HAVE HAD TO BE
HOUSED IN H-UNIT OR (E-UNIT) AT THAT TIME AND ACTUALLY APPLIED FOR
12

FINDING OF FACT
(CONTINUED)

A COA IN THE NINTH CIRCUIT WITH A PENDING CASE THAT WAS FOUND TO
OF HAD MERIT IN THE LOWER COURTS WORTHY OF RESPONSE FROM RESPONDENTS.
CHANCES ARE ONE WOULD BE HARD PRESSED TO FIND A FEW,

BUT FOR THOSE

INDIVIDUALS AND AFTER THE RECORD WOULD SHOW THIS PETITIONER HAS
SPENT NEARLY (4) FOUR YEARS OF HIS LIFE RESEARCHING AND-TIMELY
FILING AND RESPONDING TO RESPONDENTS RESPONSES, MOVING FROM ONE
COURT TO THE NEXT SO THAT FINALLY THE HIGHT COURT IN THE 9TH CIRCUIT!'
COURT OF APPEALS COULD DECIDE HIS CASE BASED ON THE VALIDITY OF
l

HIS MERITS RAISED, BUT THAN ALL THIS IS TO GO UNNOTICED BECAUSE
COVID - 19 VIRUS HAS ONCE AGAIN MADE A VICTIM OUT OF HIM, HERE
THERE IS NO CASH STIMULUS THAT WILL BRING RELIEF, RELIEF CAN ONLY
BE REACHED THROUGH A ONE TIME JUDICIAL STIMULUS OF THE UNITED
STATES SUPREME COURT.

THIS PETITIONER IS CLEARLY NOT EDUCATED

IN THELABYRINTHS OF LAW NOR HAS HE RECEIVED ANY FORMAL EDUCATION
IN THE LEGAL FIELD, BUT SHOULD HIS CRY FOR FUNDAMENTAL FAIRNESS
NOT JUST FOR HIMS BUT FOR THE MANY HUNDREDS .IF NOT THOUSANDS
THAT MAY HAVE SIMULAIR CIRCUMSTANCES IN THIS GREAT NATION OF OURS
AND THE MANY CIRCUIT BE HEARD.
ALTHOUGH THERE HAS REALLY BEEN LITTLE OF NO HISTORICAL BACKGROUND
TO ADDRESS FUNDAMENTAL UNFAIRNESS TO BOTH A PLAINTIFF AND RESPONDENT
THAT SUFFERED AS THE RESULT OF THE PENDENCY OF THE COVID-19 VIRUS
SHOULD NOT THIS SUPREME COURT OF THE UNITED STATES MAKE ROOM ON
ITS ALREADY CROWDED DOCKET TO TAKE REVIEW SIMULTANEOUSLY OF THE
13

FINDING OF FACT
(CONTINUED)
EXCEPTIONAL CIRCUMSTANCES THAT SHOULD BE CONSIDERED THAT BROUGHT
ABOUT THE COLLATERAL CONSEQUENCES TO WHAT NOW CAN BE REFERED TO
AS NEWLY RECOGNIZED COLLATERAL DAMAGES AFFIRMED AS A RESULT OF COVID
-19 VIRUS.
IN SUCH RARE GIVEN AND RECOGNIZED PREVIOUSLY LEGITIMATE IDENTIFIED
CIRCUMSTANCES SUCH AS THOSE DICLOSED IN PETITIONER (O'NEALS) CASE
SHOULD NOT CONSIDERATION BE REVIEWED BY ANY CIRCUIT COURT OF SUCH
JURISDICTION FROM WHERE THE PETITION AROSE, AND SHOULD NOT PROPER
AUTHORITY AND RECOGNITION BE ENACTED UNDER SUCH CONDITIONS BY THE
•UNITED STATES SUPREME COURT AS TO ALLOW ACHIEVEMENT FOR THE SERVICE
CONSIDERATION AND ACCEPTANCE AS A RECIPROCAL FIT THE CHARACTER OF
THE RECOGNITION TO BE HEARD AND CONSIDERED FOR A FEDERAL (COA) .AT
THE CIRCUIT LEVEL AND CIRCUIT THAT HOLDS SUCH JURISDICTION OF FITTING
ASSIGNMENT. WHEN A CALAMITOUS EVENT OF CATACLYSM DISASTER SUCH AS
THE WORLD WIDE UPHEAVAL OF UNPARALLEDED CATACLYSM THAT TURNED OUR
LIVES IN A NEW DIRECTION AS UNFORTUNATE AS THOSE IN CONNECTION WITH
THE COVID

19 VIRUS. AND SHOULD NOT WE AS A NATION LOOK BEYOND

THE ACT OF AN INSTANCE OF DISBURSING JUST MONEY IN A TIME SUCH AS
THIS AS TO NOT DISCOUNT OTHER DAMAGE THAT IS OF EQUALIZATION OF
A DIFFERENCE OF POTENTIAL DISCONNECT FROM THE RESPONSIBILITIES
TO THE HUMANITARIAN—TO THE INTERVENTION OF MANKIND.ALL FOR THE
FUNDAMENTAL FAIRNESS AND FUNDAMENTAL JUSTICE FOR ALL, WOULD WE NOT
PREVENT FUNDAMENTAL DEFECT DURING SUCH TIMES AS THIS.
14

FINDING OF FACT
(CONTINUED)

PETITIONER HAS DISCUSSED WITH DILIGENCE THAT UNDER THESE EXTREMELY
RARE NEVER BEFORE COMBATANT CIRCUMSTANCES OF COVID-19 THE INSTANCES
THAT OBSTRUCTED PETITIONERS TIMELY REQUEST FOR APPEAL AND COA AT
THE NINTH CIRCUIT COURT OF APPEALS , THE NOTICE OF APPEAL THAT WAS TO
BE SERVED TIMELY IN THE IDAHO FEDERAL DISTRICT COURT THAT FAILED TO
BE SERVED FOR THE SAME REASON PETITIONER WAS' UNABLE OPPOSITION TO
THE RESPONDENTS RESPONSE, BEFORE THE DISMISSAL AS SHOWN IN APPENDIX
(A). (Attached).. PETITIONER ASSERTS THE MECHANICAL NATURE OF HIS
PRINT WHEEL ON HIS TYPE WRITTER SUFFERS FROM A MALFORMATION OPERATIVE
BREAK DOWN AND THEREFORE HE IS FORCED TO USE CAPITALIZED UPPER CASE
LETTER OF THE ALPHABET, BUT HAS NOT OTHER CHOICE AS PRINT WHEELS
ARE NOT OBTAINABLE FOR REPLACEMENT,

KNOWING IN THE ABSTRACT IT IS

INSTRUMENTAL THAT LEGIBLE READING IS ESTABLISHED. NO DISRESPECT
TO THIS RESPECT COURT OR ITS JUSTICES.

THESE ARE THE PLAIN SIMPLE FACTS AND IF NO MAN SPOKE OUT WOULD WRONGS
OR DEFECTS UNADDRESSED GO ON FOREVER, IS IT NOT WHY IN OUR GREAT
NATION WE HAVE SUCH PROFESSIONALIZED EXPERTS OF LEGAL OCCUPATION
TO ENGAGE INSTRUCTION TO AVOWAL THE CHARACTERISTICS OF THE BELIEFS
AND UNDERSTANDING TO THE SENTIMENTS AND PROTECTIONS' OF OUR CITIZENS
UNDER THE UNITED STATES CONSTITUTION, AND ITS OCCUPATON OF PROTECTION
MORE SO IN TIMES LIKE THIS WHEN IT ABUNDANTLY EFFECTS EVERY JUDICIAL
DISTRICT ACROSS THIS GREAT LAND OF OURS.
15

REASONS FOR GRANTING THE PETITION

ALTHOUGH THERE IS QUESTION AS TO WHETHER OR NOT THE 9TH CIRCUIT
SHOULD HAVE CONSIDERED THE MERITS OF THE PETITION ON APPEAL, AND
THERE IS QUESTION AS TO WHETHER IT WAS ERRONEOUS, UNDER THE CIR­
CUMSTANCES OF COVID-19 THAT WAS ARGUED IN THE FORMAT OF THE
PETITION, AND UNDER THOSE CIRCUMSTANCES THERE IS A NATIONAL IMPORTmJC
ANCE THAT SHOULD BE GIVEN THAT IS CONSISTENT WITH THE IMPORTANCE
OF OUR CONSTITUTIONAL PROTECTIONS, AS THIS PETITION IS WITHIN THE
PROPER JURISDICTION OF THIS COURT AND THEREFORE PETITIONER HAS
ESTABLISHED THE TIMELINESS OF HIS PETITION FOR WRIT OF CERTIORARI.

PETITION SEEKS TO HAVE THE COURT REVIEW THE DECISION OF THE 9th Cir.
DENYING HIS APPEAL AND PETITION FOR (COA) ifl the 9th Cir •

t

WITHOUT

FIRST HEARING THE MERITS OF REASONING AS TO WHY PETITIONER WAS LADTE
UNDER THE CIRCUMSTANCES OF COVID -19, A PROBLEM NEVER DELT WITH
BEFORE IN OUR JUDICIAL HISTORY, A PROBLEM AND ISSUE APPROPRIATE
THAT CAN ONLY PERTAIN TO THE DISCRETIONARY REVIEW BY THE UNITED
STATES SUPREME COURT, AS THE DECISON’S TO BE RENDERED IS OF SUCH
GREAT IMPORTANCE THERE IS NO OTHER OR HIGHER COURT AUTHORITY OF
THE LAND SITUATED TO ADDRESS THE ARGUMENT MADE HEREIN THIS PETITION
AND THE ISSUE RAISED IS NOT ABOUT THE PETITIONERS MERITS OF HIS
CRIMINAL CASE BUT REATHER OF DISCRETIONARY MERITS COMPELLING
CONSTITUTIONAL PROCEDURAL PROTTECTIONS UNDER SUCH CIRCUMSTANCES
AS WHAT HAPPEN WORLD WIDE AND WITHIN OUR NATION AND THE JUDICIAL
PERFORMANCE.

16

REASONS FOR GRANTING THE PETITION
(CONTINUED)
PETITIONER CAN ACCURATELY STATE THAT THE ISSUES OF HIS PETITION
BEFORE THIS COURT PERTAIN TO MORE THAN SUPERFICIAL COMPLAINTS AND
IN REALITY SEEK THE EXHAUSTION OF THE STRENGTH AND ENDURANCE TO
ALLOW THIS COURT TO TEST THE IMPORTANCE OF UP HOLDING THE PROTECTIONS
OF THE UNITED STATES CONSTITUTION ANDITS CRITICAL IMPORTANCE TO
PROTECT ITS CITIZENS FROM THE DOMINEERING EXTREMES THE COVID 19
VIRUS INFLICTED NOT JUST ON THE ECOMONY, BUT THE JUDICIAL SYSTEM
AND THE UNREASONABLE HURDLES EXPECTED OF US

TO BE PRECEIVED AS

ACCEPTABLE WHEN COVID MADE THE PROCEDURES PLACED BEFORE US IMCONCLUSION

POSSIBLE TO MEET.

The petition for a writ of certiorari should be granted.

Respectfully submitted,
r

onJ

JIMMIE O'NEAL

Date:

/

PETITIONER

2021

17

(Pro/se)

